t


    Department of Health and Human Services

           OFFICE OF
      INSPECTOR GENERAL




      OPERATION RESTORE TRUST

              ACTIVITIES





            x-
            w
                  .
                 $

           #            JUNE GIBBS BROWN
           *            Inspector General
           G
           %
            %++
              ‘tivd~~     NOVEMBER 1995
               >           oRT-12-%mo
Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




  OPERATION RESTORE TRUST
          ACTIVITIES
                            TABLE                   OF CONTENTS

                                                                                                                   PAGE


Introduction      .......................................................                                                   1



                   Reviews . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    3


Nursing Facilities Reviews            ...........................................                                           8


Medical Equipment           and Supplies Reviews            ...............................                                15


Investigative and Sanction Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .              22


Outreach Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .      26


Voluntary Disclosure Pilot....                .......................................                                      34

                            INTRODUCTION


At the Department of Health and Human Services (HHS), the Office of Inspector
General (OIG) has undertaken a number of initiatives to ensure that its resources are
deployed in the most efficient and cost-effective way and that its work products continue
to be of the highest quality. One of the OIG’S major thrusts has been an intensified
effort to combat fraud, waste and abuse in the Medicare and Medicaid programs. While
the health care industry has always been vulnerable to fraud and abuse, recent years have
seen a surge in complex schemes which often span several States and implicate millions
of health care dollars. In an effort to respond to this growing problem most effectively,
the OIG has shifted its organizational culture toward an added emphasis on
interdisciplinary teamwork. The OIG’S auditors are working even more closely with its
investigators when audit findings suggest criminal fraud; and OIG evaluators are using
their analyses to identify program vulnerabilities, giving auditors and investigators targets
for further development as well as case-specific data for existing investigations which may
result in civil and administrative sanctions.

The benefits of greater collaboration and sharing of resources also have been realized in
the OIG’S relationships with other Federal and State law enforcement and regulatory
agencies. Using this expanded team concept, the OIG is working jointly with the Health
Care Financing Administration (HCFA) and the Administration on Aging (AoA) on a
project designed to prevent and detect fraud and abuse in three rapidly growing sectors
of the health care industry: home health agencies, nursing facilities and durable medical
equipment suppliers. Operation Restore Trust (ORT), announced by the President on
May 3, 1995, is a 2-year partnership of Federal and State agencies working together to
protect the health care trust funds more effectively through shared intelligence and
coordinated enforcement, and to enhance the quality of care for the programs’
beneficiaries. The project has initially targeted five States which together account for 40
percent of the Nations’ Medicare and Medicaid beneficiaries.

As the project’s coordinator, the OIG has assembled teams that include investigators
from its Office of Investigations and the State Medicaid Fraud Control Units; auditors
and evaluators from both the OIG and HCFA quality assurance specialists from the
State surveyors and durable medical equipment regional coordinators; State long-term
care ombudsmen through AoA, and prosecutors from the Department of Justice and the
Offices of the United States Attorneys General. These teams are conducting financial
audits of providers, performing criminal investigations and making referrals to Federal
and State prosecutors. Civil and administrative sanctions and recovery actions have been
enacted, and surveys and inspections of nursing facilities are also underway. The
collective experience of these teams also will be used to recommend to HCFA and the
Congress program adjustments to prevent future fraud and to reduce waste and abuse.

The OIG is also enlisting the support and participation of the public and the industries
that the initiative targets. A hot line (1-800-HHS-TIPS) has been established to receive
allegations of fraud and abuse on a confidential basis. To further assist health care


                                              1

providers, the OIG will continue its practice of issuing Special Fraud Alerts to identify
and describe fraudulent and abusive health care practices. Moreover, a voluntary
disclosure program has been initiated on a pilot basis under the auspices of ORT.
Through this pilot program, the OIG and the Department of Justice have established
procedures by which home health and nursing facility suppliers and providers in the five
States may come forward with full disclosure of potential fraud and abuse. By doing so,
self-disclosing providers may minimize the cost and disruption of an investigation,
negotiate a monetary settlement in lieu of prosecution, and when appropriate avoid
exclusion from Medicare and Medicaid program participation.

The ORT project will take 2 years for completion and evaluation. If it proves to be both
effective and efficient, other areas may be singled out for similar treatment. Employing
these and other initiatives, the OIG is working to ensure the integrity and efficiency of
the Medicare and Medicaid programs and to protect the beneficiaries of those programs.




                                            2

             HOME            HEALTH               REVIEWS


COMPLETED AUDITS AND EVALUATIONS

Review of Claims by One Home Health Agency

Review of Home Ofice General and Administrative Costs Claimed by One Home

 Health Agency

Periodic Interim Payments (PIP) to Home Health Agencies

Home Health Agencies: Alternative Coverage and Payment Policies

The Physician’s Role in Home Health Care

Results of the Audit of Medicare Home Health Services in Florida

Variation Among Home Health Agencies in Medicare Payments for Home Health Services

Geographical Variation in Visits Provided by Home Health Agencies

Medicare Beneficiary Satkfaction with and Understanding of Home Health Services


ONGOING AUIXIX AND EVALUATIONS

High Cost Home Health Agencies

Home Health in Health Maintenance OEanizations

Home Health Eligibilip Reviews

H~ Cost Repoti Reviews


PLANNED AUDiTS AND EVALUATIONS

l%e Physician’s Role in Home Health Care: A Follow-Up




                                          3

              HOME HEALTH REVIEWS: PROJECT DESCRIPTIONS


COMPLETED AUDITS AND EVALUATIONS

Review of Ckzirnsby One Home Health Agency (A-04-94-02078)

This report involves claims for home health agency visits that did not meet Medicare
guidelines. These claims involved visits that were not rendered and visits that were made
to individuals that were not eligible for home health benefits. Of the $45.4 million
claimed by this home health agency during FY 1993, we estimated that $25.9 million did
not meet reimbursement guidelines. We recommended that HCFA recover the
overpayment. HCFA initiated recoveq action. The agency filed for bankruptcy in
August 1993.

Final Report February 1995

Review of Home O@e General and Administrative Costs Clizirnedby One Home Health
a@KY (A-04-93-02067)

This report involves unallowable general and administrative costs claimed by this HHA
on its FY 1992 Medicare cost report. This agency claimed $14.6 million of unallowable
computer software, salaries, owner’s compensation, entertainment, marketing and
promotional activities, lobbying, and other costs. Subsequent to issuing the final audit
report, we initiated exclusion proceedings. The agency is currently appealing the
proposed exclusion action.

Final Report March 1995

Peniodic Interiin Paymen#s (PIP) to Home Health Agencies (A-14-95-O0396)

This report shows that HHAs which receive hi-weekly prepayment of claims based on an

estimate of annual visits creates an environment that fosters excessive overpayments.

Our review shows that HHAs on PIP account for an average of 41.4 percent of the total

HHA overpayments to the Medicare program. We recommended that PIP method of

reimbursement to HHAs should be strictly enforced or eliminated. The HCFA

concurred with our recommendation and included elimination of PIP in its 1997 “

legislative package.


Final Report March 1995


Home Health Ag&:        Alternative Cbverage and Payment Policies (OE1-12-94-00180)

This inspection describes policies of payers other than Medicare regarding coverage,
limitations, and quality and utilization controls. Surveyed entities included national
health maintenance organizations, Medicaid programs, the Department of Veteran’s


                                             4
Affairs, private insurers, and foreign governments. We found that while home health
benefits in other health plans are structured similarly, they tend to use a variety of
different approaches to control home health expenditures. Other payers may place limits
or caps on the number of services, target home health programs to special needs
populations, require copayments, issue explanations of benefits, or more intensely use
case management services.

Final Report May 1995

Zhe P~siiizn% Role in Home Health Care (OEI-02-94-O0170)

This review examines the current role of the physician in home health care. We found
that physicians are most involved in referring patients, approving plans of care, and
monitoring the progress of complex patients. They are less involved in coordinating
services, visiting patients at home, and participating in interdisciplinary conferences.
Both agencies and physicians identify some obstacles related to the physician role
including: communications, paperwork, physician awareness and education, and the
overall intensity of physician involvement. We recommended that HCFA continue its
efforts to change the plan of care to ensure it conveys only critical information and
relieves unnecessary burden. We also recommended that HCFA strengthen its efforts to
educate agencies and physicians about its policies regarding the physician’s role in home
health care.

Final Report June 1995

Results of the Audit of Wdicare Home Health Services in Floridil (A-04-94-02087)

This involves a review of claims paid to a sample of HHAs in Florida. We found that 26
percent of the claims approved for payment did not meet Medicare reimbursement
requirements because: visits were made to beneficiaries who were not homebound,
unnecessary services were provided, and visits were not documented or not rendered.
We estimated that during the month of February 1993, the intermediaries approved
unallowable claims with charges totaling $16.6 million out of a universe of $78 million.

Final Report June 1995

Varidm Anwng Home Health Agencies ih Medicare Paymen~ for Home Health Senkes
(OEI-04-93-00260)

This inspection report describes the variation in average reimbursement per beneficiary
for 6,803 HHAs in 1993 and possible reasons for this variation. We found that the
variation was significant and seemed to be explained by the wide variation in the average
number of visits per beneficiary. Proprietary, for-profit, non-affiliated agencies tended to
receive higher reimbursement. These higher reimbursed agencies provided seven times
more home health aide visits than lower reimbursed agencies. Differences in quality or
beneficiary characteristics did not appear to explain the variation. We recommended


                                             5
that HCFA explore ways to address excessive utilization and inappropriate variation in
reimbursement among HHAs. In addition, we recommended that HCFA continue to
work on improving the home health benefit and to control fraud, waste, and abuse.

Final Report July 1995

Geqgmphical Variation in Vi        l+wkied by Home Health Agencies (OEI-04-93-O0262)

This report analyzes    differences among States in visits by home health agencies.
Nineteen States had     a larger concentration of home health agencies with a high average
number of visits per   beneficiary than other States. Home health agencies in four
Southeastern States    averaged significantly higher average number of visits than all other
States.

Final Report September      1995

Medicare Benefkiary Sati@action with and Urukmtanding of Home Health Services
(OEI-04-93-O0143)

As part of the OIG’S recurring nationwide Medicare beneficiary satisfaction survey, we
included questions in the 1994 survey about satisfaction and understanding of home
health services. We found that a high percentage of beneficiaries were satisfied with the
home health services they received. However, only half of the beneficiaries thought it
was clear what Medicare paid for. We recommended that HCFA pursue methods to
increase beneficia~ understanding of what home health services Medicare pays for on
their behalf. HCFA has been experimenting with various methods to do so.

Final Report November 1995


ONGOING AUDITS AND EVALUATIONS

High Cost Home Health Agencia (OEI-04-93-00261)

This study will provide an analysis of differences in quality assurance, utilization controls,
and patient management between high cost and low cost home health agencies. We have
defined as high cost those agencies with significantly higher average per beneficiary costs,
and as low cost those with significantly lower average per beneficiary costs. This study is
a follow up to previous work in which we found wide variation in per beneficiary costs
without apparent explanation for such variation.

Draft Target December      1995

Home Health h Health Maintenance Oganizatwns (OEI-04-95-00080)

This study will assess how home health services are provided and managed in health


                                               6
maintenance organizations, how home health is delivered and provided in managed care
versus fee for service, and what lessons Medicare can draw from managed care
environments.

Draft Target December    1995

Home Healih Eli’ility   Reviews

The objective of these reviews at approximately 10 providers is to determine whether
home health visits claimed by selected HHAs meet Medicare guidelines. During these
audits, we will determine if home health visits were made to beneficiaries who were not
homebound; visits provided services that were considered unreasonable and unnecessary
and visits were billed but not made.

Draft Targets 1995 and 1996

H~    C@ Repoti Reviews

We are conducting joint HHA cost report audits with Medicare contractors in New York
and Texas. The audits will examine the allowability of HHA administrative costs claimed
by the selected HHAs. We also plan to conduct HHA cost report audits through the use
of contracting services.

Draft Targets May 1996


PLANNED AUDITS AND EVALUATIONS

l%e Physician   Role in Home Health Care: A FoLbw-Up (OEI-02-95-O0270)

We will examine whether physicians are providing case management services as required
when billing for oversight of home health plans of care. Effective January 1, 1995,
Medicare will provide separate payment for physician care plan oversight of beneficiaries
who are receiving Medicare covered home health services.

Expected Issue Date: FY 1996




                                            7

        NURSING                FACILITIES                   REVIEWS


COMPLETED AUDITS AND EVALUATIONS

Medicare Payments for Nonprofessional Services in Skilled Nursing Facilities

Review of Improper Payments Made to Hospitals and Skilled Nursing Facilities for

Beneficiaries Electing Hospice Benefits

Review of Hospice Beneficia~ Eli@”bilityat Hospicio Del Oeste, Inc., San German, Puerto

Rico

Review of Hospice Beneficiary Eligibility at Hospicio En El Hogar De iWanah, iWanati,

Puerto Rico

Medicare Services fiovided to Residents of Skilled Nursing Facilities


ONGOING AUDITS AND EVALUATIONS

Part B Services in Nursing Homes: An Overview

Mental Health Services in Numing Homes

Review of Hospice Benef7ciaty Eligibility in Puerto Rico

Review of Hospice Eligibility

Services Provided to Medicare and Medicaid Beneficiaries in Nuning Homes: A Joint

Project


PLANNED AUDITS AND EVALUATIONS

Further Review of Improper Payments to Hospitals and SNFSfor Beneficiaries Electing

Hospice Benefits

Hospital Use of Subacute Nuzsing Facilip Care to Maximize Reimbursement

17wee-Day Hospital Stay

MedicarelMedicaid Duplicate Payments in Nuning Facilities

Imag”ng in Nursing Homes

Nail Debridement

Medicare Ambulance Transpotiation for Nursing Home Residents

Hospice Services Provided to Patients in Nursing Homes

Overview of Hospice Services





                                             8

             NURSING FACILITY REVIEWS: PROJECI’ DESCRIPTIONS


COMPLETED AUDITS AND EVALUATIONS

M&are    Paymend for Nonhfewional       Servicer in Skilkd N&g     Faditiks
(OEI-06-92-O0864)

This report examines the appropriateness of allowing Part B payment for non-
professional services during SNF stays. The report focuses on enteral nutrients,
incontinence items, and surgical dressings and finds that over $70 million were allowed by
Part B for these services in 1992. The report recommends that HCFA take action to
require SNFS to provide these services within the Part A payment rate.

Final Report June 1995

Review of Impmper Payments Mad&to Hospitak and Skilled Niusing Facilities for
Ben@cizrks Eikctihg Hwpice Ben@s (A-02-93-01029)

This report described situations in which both hospitals or skilled nursing facilities (SNF)
and hospices submitted claims for payment for services related to a beneficiary’s terminal
illness. In a nationwide audit, we determined that, during the period 1988 through 1992,
approximately $21.6 million was improperly paid to hospitals and SNFS for services
related to a beneficiary’s terminal illness. Under the hospice program, if a hospice
beneficiary is hospitalized/institutionalized for a condition related to his/her terminal
illness, the hospital/SNF should not bill Medicare for the admission or any services
rendered but should receive payment from the hospice. The hospice receives its
appropriate per diem payment from Medicare for the period of time the hospice
beneficiary is confined. We recommended recovery of the improper payments and
HCFA agreed with our recommendation.

Final Report June 1995

Review of Hospice Benejiimy Eligibility at Hospkio Del Oeste, Ike., San Germq      R.urto
RiCO   (A-02-94-01029)

This audit assessed the accuracy of beneficiary eligibility determinations made by
Hospicio Del Oeste, Inc., San German, Puerto Rico. We found that incorrect eligibility
determinations were made in approximately 77 percent of the cases reviewed at this
hospice. This resulted in improper Medicare payments to Hospicio Del Oeste of $1.1
million. Based on our findings, investigations are being conducted to determine possible
criminal charges against the owners/operators of the hospices reviewed.

Final Report June 1995




                                              9

Review of Hmpice Benejki@ E@ibility at Harpicw En El Hqar De Mana~ llana~
Ru?rto RkO (A-O2-94-O1O3O)

This audit assessed the accuracy of beneficiary eligibility determinations made by
Hospicio En El Hogar De Manati. We found that incorrect eligibility determinations
were made in approximately 70 percent of the cases reviewed at this hospice. This
resulted in improper Medicare payments to Hospicio En El Hogar De Manati of $1.6
million. Based on our findings, investigations are being conducted to determine possible
criminal charges against the owners/operators of the hospices reviewed.

Final Report June 1995

Medicare Services l?ovided to Residknts of Skilkd Nuning Facilitk   (OEI-06-92-O0863)

This report, released in conjunction with our report entitled “Payment for DME Billed
During Skilled Nursing Facility Stays,” provides an overview of payments made under
Medicare Part B for beneficiaries in a Medicare covered SNF stay, and identifies issues
needing further analysis. We found that there were $930 million in Part B charges for
Medicare beneficiaries residing in SNFS. Utilization of Part B services varied
considerably among States. This report represents the first of a series of products
resulting from the OIG’S initiative to examine services and supplies provided to Medicare
beneficiaries residing in nursing homes.

Final Report October 1994


ONGOING AUDITS AND EVALUATIONS

Part B Sewkes k Numing Homes: An Overv&w (OEI-06-92-O0865)

This report, released in conjunction with our reports entitled “Enteral Nutrient Payments
in Nursing Homes” and “Durable Medical Equipment Payments in Nursing Homes”
provides information on the range and nature of over $2.7 billion in Part B payments
made on behalf of Medicare beneficiaries in nursing homes. We found that most money
was spent on physician services, followed by medical equipment and supplies. The Part
B average daily charge varies significantly among States and nursing homes.
Vulnerabilities include cost shifting, lack of oversight, and questionable physician and
supplier practices.

Draft October 1995 Final Target November 1995

Mental Health Services in Numing Homes (OEI-02-91-00860)

This study assesses the nature and appropriateness of mental health services delivered to
Medicare beneficiaries in nursing homes. This study will identify possible vulnerabilities
to the Medicare program resulting from the expanded provision of mental health services


                                            10
to nursing facility residents. As a result of this expansion, Medicare reimbursement for
all outpatient mental health services increased 57percent between 1991 and 1993. By
comparison, reimbursement for mental health services in nursing homes has increased by
244 percent for the same time period.

Draft Target November 1995

Revikw of Hmpice Benej%iary Eligibil@ ti I%ato Rico (A-02-94-01035)”

This audit expanded our review of eligibility determinations to include all hospices in
Puerto Rico. Our original review had been conducted at two facilities. Preliminary
indications are that during the period 1987 through 1994 as much as $19.7 million was
improperly paid to hospice providers in Puerto Rico on behalf of ineligible beneficiaries.

Draft Target December    1995

Revkw of Hospice Eligibility

We plan to review the eligibility determinations at approximately 13 hospice providers to
assure that care was provided for in accordance with applicable Medicare guidelines.

Draft Targets 1995 and 1996

Servkes RovLied to Medicare and Medicaid Beneficiarhx in Ni.usingHomes: A Joiht
l?oject (OEI-06-95-O0220)

This inspection, involving a joint OIG-HCFA team, will develop data on services
rendered to and paid by Medicare and Medicaid to beneficiaries in nursing homes in
Texas and Louisiana. We are undertaking work in Texas first.

Draft Target (Texas) April 1996


PLANNED AUDJTS AND EVALUATIONS

Fudwr Review of Impmper Payments to Hospitals and SNFSfor Benefkiarks Electing
Hwpice Benefits

We plan to expand our previous review of these duplicate payments made to hospitals
and SNFS to include payments made during the years 1993 and 1994 and into 1995, if
information is available. We are currently in the process of extracting data from
computer tapes of payments made to these providers and will extrapolate the results to
determine if the situation previously found continues to exist. We will also determine if



                                             11

there are providers that display aberrant patterns in terms of duplicate payment
situations and assess the need for further review of these providers.

Expected Issue Date: FY 1996

Hospital Use of Subacute N&g      Facility Care to Maximize Reinabummumt
(A-09-95-OO089)

There is a perception that hospitals are maximizing reimbursement by prematurely
discharging some Medicare patients covered under the prospective payment system to
their own hospital-based nursing facilities that are reimbursed on a cost basis. We intend
to compare average length-of-stays (ALOS) for selected diagnosis related groups (DRGs)
that have subacute units with those hospitals that do not have such units. Besides
reviewing the ALOS for several different DRGs, we will perform a more detailed cost
analysis on a statistically selected sample of patient stays at hospitals with hospital-based
subacute units and at hospitals without such units.

Expected Issue Date: FY 1996

7hree Day Hospital Stay (A-14-95-O0398)

This study will determine if payment for skilled nursing facility stays meet    Medicare’s
coverage conditions. In order to be paid by Medicare, a patient’s nursing       home stay
must be preceded by a 3-day or more hospital stay. We have indications         in one location
that some nursing home stays were not preceded by the required hospital         stay. This
expanded review will determine if this is a national problem.

Expected Issue Date:   FY 1996

Medkare/Medicaid Duplkate P-B           in Ntig    Facililkr (OEI-02-95-O0230 and
A-O2-95-O1O12)

We will assess the extent to which Medicare and Medicaid may be making duplicate
payments for patients in nursing facilities. There are many nursing home residents whose
care is covered by both Medicare and Medicaid. For these patients, there are numerous
services (e.g., durable medical equipment) that may be covered by the Medicaid nursing
facility rate and Medicare Part B. The guiding principle for payment is that Medicaid is
the payer of last resort. We will assess how the system works in these circumstances.
As a test case, we are performing a data match in the State of New York to identify and
target specific providers who appear to be improperly claiming both Medicaid and
Medicare reimbursement for clients who reside in nursing homes. Survey work will be
performed at each of the targeted providers. If our survey work discloses aberrant,
fraudulent, or improper claiming practices, then detailed provider reviews involving



                                             12

applicable Operation Restore Trust participants will be conducted.

Expected Issue Date: FY 1996

lm@ng in Ntig      Homes (0E1-09-95-00090)

Our study will determine whether inappropriate payments are made for imaging services

delivered to patients in skilled nursing or other nursing facilities. A significant number of

diagnostic x-ray services, covered under Medicare Part B, are delivered to patients

residing in these facilities. In 1992, Medicare allowed approximately $408 million for

imaging services to nursing home residents. While high utilization rates may be expected

in this population, there are concerns about the general lack of controls or oversight of

services delivered to nursing home residents.


Expected Issue Date: FY 1996


Nail Debridemmt (OEI-04-94-00440)

This study will determine why significant variances exist for nail debridement claims
among carriers, and assess how carrier policies have affected payment for such claims.
Expenditures for nail debridement increased 26 percent from 1991 to 1992 (1993 data
not available), to reach $167 million. Increases of 370 percent and 800 percent occurred
in two carriers for one code, four carriers account for half the total expenditures for
another code; and two carriers account for half of the total for a third code. We believe
much of this service occurs in nursing homes.

Expected Issue Date: FY 1996

Medicare Ambu.kmce Thmsportation for N&g              Home Reisidknts(OEI-O9-95-OO41O)

We will assess potential policy issues and appropriateness of payments for ambulance

services provided to Medicare beneficiaries residing in skilled nursing and other nursing

facilities. In 1992, Medicare Part B paid an estimated $238 million for ambulance

services to beneficiaries in these facilities. Approximately 18 percent of all Medicare

beneficiaries in these settings received ambulance services. Substantial variation exists in

the amounts spent under Medicare Part B for such services by State and by nursing

home.


Expected Issue Date: FY 1996


Hmpice Sewices tioviied    to Patients in N&g         Homes (OEI-05-95-00250)

We will examine how payments are being made for patients in nursing facilities who are



                                                13

also receiving hospice benefits. Our goal will be to identi~ systemic vulnerabilities that
might result from overlapping Medicare and Medicaid payment policies and to suggest
possible solutions. We will also describe how nursing home patients are enrolled in a
hospice and explore how responsibilities between the hospice and nursing home are
being delineated for the management and delivery of care to these terminally ill patients.

Expected Issue Date: FY 1996

(9Vemiew of Hmpice Sewer     (OEI-04-93-O0270)

We will examine the appropriateness of services provided to hospice patients, the
payments for those services, patient selection, and patient protection. Medicare provides
for two 90-day periods of hospice care, and one 30-day period, with a final unlimited
period for terminally ill patients certified to have a life expectancy of 6 months or less.
Covered services include nursing and physician services, counseling, durable medical
equipment, home health aide services, and physical therapy. Once a patient is certified,
elects a hospice, and is under a plan of care, the hospice is paid a prospective per diem
rate for that patient, regardless of whether any services are rendered on a given day.
The hospice’s total yearly payments are subject to an aggregate cap per patient. Patients
can revoke their choice of hospice once per period. Evidence from OIG reviews and
other sources indicate questionable payments being made in hospice services.

Expected Issue Date: FY 1996




                                             14

           MEDICAL    EQUIPMENT                                         AND
               SUPPLIES   REVIEWS

COMPLETED AUDI’I’S AND EVALUATIONS

Payment for Durable Medical Equipment Billed During Skilled Nuning Facility Stays
Questionable Medicare Payments for Incontinence Supplies
Marketing of Incontinence Supplies
Coverage of Enteral Nutrition l%erapy: Medicare and Other Payers
Questionable Medicare Payments for Wound Care Supplies
Marketing of Wound Care Supplies
Wound Care Supplies: Operation Restore Twt Data
Medicaid Payments for Incontinence Supplies

ONGOING AUDITS AND EVALUATIONS

Durable Medical Equipment Payments in Nursing Homes

Enteral Nutn”entPayments in Numing Homes

Medicare Payments for Enteral Num”tion

Medicare Payments for Nebulizer Drugs

Enteral Nutrition Therapy: Utilization and Medical Necessity


PLANNED AUDITS AND EVALUATIONS

Supporl Su@aces

Orthotic Supplies

Portable O~gen

Lease Purchase of O-xygenConcentration

Certificates of Medical Necessity for Durable Medical Equipment

DkchaGe Planning

Physicians’ Roles in Controlling Non-Physician Services and Supplies





                                             15

 MEDICAL EQUIPMENT AND SUPPLIES REVIEWS: PROJECT DESCRIIWIONS


COMPLETED AUDITS AND EVALUATIONS

Payment for Durable Medical Eqwpment Billed Dining Skilkd Numing Facility Stays
(OEI-06-92-O0860)

This report found that approximately $8.9 million in 1991 and $10.8 million in 1992 was
incorrectly allowed for DME billed during skilled stays. Federal law states that DME
may only be billed to Part B of the Medicare program if the equipment is provided in
the beneficiary’s residence. The law specifies that a skilled nursing facility cannot be
considered a residence. For this reason, equipment billed to Part B during a SNF is
incorrectly paid. We found that the inability of the suppliers and carriers to accurately
determine the beneficiary’s location during a skilled stay leads to the incorrect payment
of Medicare funds.

Final Report October 1994

Quedonable   Medicare Paymenzs for Incontinence SuppliA (OEI-03-94-O0772)

This report examines trends in allowances and questionable billing practices for
incontinence supplies under Medicare Part B between 1990 and 1993. It describes how
Medicare allowances for incontinence supplies more than doubled in 3 years despite a
drop in the number of beneficiaries using these supplies. Four types of incontinence
supplies account for almost all the increase in allowances. Questionable billing practices
may account for almost half of incontinence allowances in 1993. A policy change which
HCFA has proposed should address questionable billing practices.

Final Report December    1994

iUarketihg of Incontinence Suppks (OEI-03-94-00770)

This report describes supplier and nursing home practices that can lead to inappropriate
payments for incontinence supplies. Nursing homes we interviewed indicated that
suppliers engage in questionable marketing practices. Beneficiaries we interviewed
indicated that they may be receiving unnecessary or non-covered supplies. Some nursing
homes reported that suppliers present them with false or misleading information such as
Medicare is introducing “new broader coverage” for incontinence supplies. Finally, we
found that many nursing homes do not track Medicare-reimbursed supplies to the
specific beneficiary for which they were billed.

Final Report December    1994




                                            16

Ciwrage of Enteral Nutrition 7herapy: Medicare and Other Payers (OEI-03-94-OO020)

This review found that most payers surveyed routinely cover enteral nutrition therapy.
Compared to other payers, Medicare’s coverage requirements are similar in some areas
and more restrictive than others. For example, like Medicare, the majority of other
payers do not routinely cover cognitive disorders such as Alzheimer’s disease. Other
payers will cover patients with a functioning gastrointestinal tract with special
nutrient/metabolic needs; whereas Medicare will not. Medicare policy requires specific
documentation for items such as pumps, product category and caloric intake, whereas
other payers do not.

Final Report May 1995

Quationable Medicare Payments for Wound Care Supplies (OEI-03-94-00790)

This report describes the questionable billing practices for wound care supplies under
Medicare Part B from June 1994 through February 1995. We found that questionable
payments of wound care supplies may account for as much as two-thirds of the $98
million in Medicare allowances. Wound care activity is concentrated in States, suppliers,
place of service, and one carrier. The HCFA and the four DME regional carriers have
taken corrective actions to address wound care abuses and continue to explore others.
We recommend a partial, long term solution that would require HCFA to bundle
services, such as wound care supplies, in their Medicare or Medicaid payments to nursing
homes. As an immediate solution we recommend that HCFA target limited program
integrity resources to those areas identified as most vulnerable to abuse and continue to
monitor wound care activity to determine if the level of questionable payments continues.
If questioned payments continue unabated, HCFA may need to reconsider the current
wound care benefit.

Final Report October 1995

Marketing of Wound Care Supplies (OEI-03-94-O0791)

This report describes supplier and nursing home practices which can lead to
inappropriate payments for wound care supplies and examines issues concerning
beneficiaries’ use of these supplies. We found that nursing homes and physicians
determine which patients need supplies but some suppliers determine the amount
provided, wound care supplies are frequently provided in standard kit form to
beneficiaries, and beneficiaries may not be receiving or using all of the wound care
supplies reimbursed by Medicare.

Final Report October 1995




                                            17

Wound Care Supplies Ope.mtion Restore Tkst Dati (OEI-03-94-O0792)

This report identifies questionable billing practices and describes supplier and nursing
home practices that can lead to questionable payments under the Medicare Part B
wound care benefit in the five States targeted by Operation Restore Trust. We found
that over $22 million of the $65 million in questionable payments for wound care supplies
between June 1994 and February 1995 was in the five Operation Restore Trust States.
Wound care activity in these five States is concentrated by product, supplier, and place of
service. In addition, nursing homes in these States report similar marketing practices by
wound care suppliers; however, in some States the practices are more widespread.

Final Report October 1995

Medicaid Payments for I.ontinence   Supplkr (OEI-03-94-O0771)

We found that half of the States in our sample had encountered improper billings for
incontinence supplies. In one State, California, improper payments exceeded $100
million. Other States experienced problems, but to a lesser degree. We also found that
States do not generally review the appropriateness or necessity of incontinence services
paid by Medicare, and that Medicare does not require carriers to noti~ Medicaid State
agencies of improper crossover payments made on behalf of Medicaid beneficiaries.
Thus, States may inadvertently make unallowable payments for Medicare copayments.
We recommended that HCFA alert Medicaid State agencies about this vulnerability and
take appropriate steps to ensure that States are notified of improper Medicare payments
which contractors discover have been made on behalf of a Medicaid beneficiary.

Final Report November 1995


ONGOING AUDITS AND EVALUATIONS

Durabk Medkal Equ@nent Payments in Nuning Homes (OEI-06-92-O0862)

This report discusses payments for durable medical equipment in nursing homes in 1992,
and various options for establishing a workable system for dealing with payment for
durable medical equipment while a beneficiary is in a nursing home.

Draft October 1995 Final Target November 1995

Enteral Nm”ent Payments t%NumhzgHomes (OEI-06-92-O0861)

This report discusses payments for enteral nutrients delivered to beneficiaries in nursing
homes in 1992, compares Medicare payments to purchase prices commonly available to
nursing homes through volume purchasing or other contractual relationships, and
identifies various options for establishing a workable system for dealing with payment for
enteral nutrients while a beneficia~ is in a nursing home.


                                            18
Draft October 1995 Final Target November 1995

Medicare P~        for Enterd Ntin       (OJ31-03-94-()() (121)

This study will determine how Medicare compares to other payers in its pricing, payment
mechanisms, and supplier networks.

Draft Target November 1995 Final Target December 1995

M&are    Paymenzs for Nebulizer Drugs (OEI-03-94-O0390)

This report examines the differences in the reimbursement methodologies used by the
Medicare and Medicaid programs to pay for nebulizer drugs.

It will be followed by a separate report on retail pricing for one nebulizer drug (OEI-03-
94-00391).

Draft October 1995 Final Target November 1995

Enteml N~”tion   Zherapy: Uiihkation and Medical Nec~”ty      (OEI-03-94-OO022)

This inspection will assess how enteral nutrition is being used by Medicare beneficiaries.

Draft Target December    1995


PLANNED AUDITS AND EVALUATIONS

Suppwt Su@aces (OEI-02-95-00370)

This study will determine the extent of questionable billing for support surfaces.

Expected Issue Date: FY 1996

Orthotic &!P@es (OEI-02-95-00380)

We will determine the extent of questionable billing for orthotic supplies. The Medicare
program reimburses the costs associated with braces, trusses, splints, and related items
that immobilize and shore up diseased, injured, or weakened body parts. These devices
must be “rigid or semi-rigid” and must support part of the body and/or restrict or
eliminate motion. Medicare allowed more than $63 million in 1994 for these supplies.
Previous work by the OIG in the area of orthotic body jackets indicated that a substantial
percentage of inappropriate payments were made.

Expected Issue Date: FY 1996



                                             19

Ponazbk @en     (OEI-O7-95-OO21O)

This study will examine medical necessity issues associated with Medicare coverage of
portable oxygen. Medicare beneficiaries meeting the requirements for oxygen therapy
may also qualify for coverage of a portable oxygen system, either by itself or to
complement a stationary system, such as an oxygen concentrator. We will also assess the
prescribing practices of physicians who order the systems and how Medicare monitors
utilization and medical necessity for the systems. Medicare allowed about $83 million for
portable oxygen systems in 1992.

Expected Issue Date: FY 1996

Lease l%mhase of Oxygen Concentrator (OEI-07-95-00330)

This study will determine if Medicare should encourage lease-purchase arrangements for
oxygen concentrators. Medicare pays rent for durable medical equipment until total
reimbursement reaches 150 percent of the purchase price; from that point on, only
maintenance charges are covered. In contrast, Medicare pays for oxygen concentrators
(about $320 per month) for as long as the beneficiary needs it. If the same rules that
apply to durable medical equipment were applied to oxygen concentrators, Medicare
would cease making payments for rent after a period of time.

Expected Issue Date: FY 1996

Certifkater of Medical Neca”ty for Durable Medical E@prnent        (OEI-03-94-00420)

Our study will determine if the certificate of medical   necessity forms are providing the
durable medical equipment regional carriers with the     information and controls that they
need to assure that the equipment being provided to      Medicare beneficiaries is medically
necessary and appropriate. The HCFA requires that         these forms be completed by
physicians who authorize durable medical equipment       for Medicare beneficiaries.

Expected Issue Date: FY 1996

Dircharge PZunning (OEI-02-94-00320)

This study will determine the extent to which financial conflicts of interest (such as
hospital ownership of other providers or suppliers’ businesses) or inadequate information
or training may hinder effective hospital discharge planning for Medicare and Medicaid
beneficiaries. Medicare requires that hospitals employ discharge planners to provide
referrals to such continuing care as patients may need and to facilitate early discharge.
The responsibilities range from searching for a nursing home bed to referring patients to
infusion companies, medical equipment suppliers, or home health agencies.



                                            20

Expected Issue Date:   FY 1996

P~siciizns’ Roles in Contrdlng Non-Physician Senkes and Supplk      (OEI-03-94-O0400)

This study will assess how effectively physicians are meeting Medicare’s expectations that
they act as controls against unnecessary use of non-physician services and supplies. This
study will build on our work assessing the physician’s role in home health (02-94-00170)
and in completing certificates of medical necessity (03-96-00010) and identify common
obstacles and successes in ensuring that physicians perform this important service.

Expected Issue Date:   FY 1996




                                            21

       INVESTIGATIVE    AND SANCTION

                  ACTIVITIES


The OIG currently has 211 investigations underway that are related to Operation Restore

Trust, including 59 joint ventures with the Department of Justice, the Federal Bureau of

Investigation (FBI), the United States Postal Inspection Service, the Defense Criminal

Investigative Selvice, the Railroad Retirement Board, and other law enforcement

agencies.


The distribution of cases among the target States mirror the beneficiary population of

each State. New York, California, and Florida have 75 percent of the investigations.

The remaining 25 percent are equally divided between Illinois and Texas. Nursing home

facilities and related medical services comprise approximately 80 percent of the cases;

home health agencies the remaining 20 percent.


To date, OIG has achieved 21 criminal convictions, 9 civil judgments, 9 indictments and

33 exclusions in cases that are a direct result of the ORT initiative. Nineteen criminal

convictions, 7 civil settlements and 7 indictments involved nursing facilities and related

medical services cases and 2 conviction and 2 settlement concerned home health

agencies. In addition, OIG has collected a total of $34,935,422 in fines, recoveries,

settlements, and civil monetary penalties during this same period. Also, a savings to the

programs of $2,176,979 has been claimed. The following is a brief summary of some of

these investigations:


Home Health Agencks

- Leon McNinch, CPA for a Texas H~          has agreed to a guilty plea in connection the
  HHA’s 1992 and 1993 Medicare cost reports. McNinch will cooperate in identifying
  the fraudulent entries, and make restitution of $200,000. The owners of the HHA are
  alleged to have charged false pension plan contributions and personal expenses to the
  Medicare program.

- With the help of HCF~ Region IX, Health Standards and Quality Division, the
  provider agreement for Austin Home Health was terminated. Complainants charged
  that the HHA was having “charting parties” to document services. There was
  insufficient evidence to pursue criminal charges; however, there were enough issues
  regarding the quality of care to terminate the provider agreement. The termination
  will result in savings of $1,282,428.92.

- John Watts, President of United Care Home Health, and Gene Woods, the
  Administrator, pled guilty in central California for submitting false claims to Medicare
  totalling up to $2,5 million during a 17-month period. These individuals billed
  Medicare over $9.9 million for 88,907 home health visits to 680 Medicare beneficiaries


                                            22

  (some were deceased) and collected $5.6 million. They aided kickbacks for referral
  Medicare beneficiaries; created false medical records to document home visits not
  made; and submitted false Medicare cost reports.

N&g    Facilitia

  Fort Tryon Nursing Home, a 240-bed facility in New York City, agreed to pay a civil

  monetary penalty of $24,000 for filing inaccurate Medicare cost reports. Cost reports

  for 3 consecutive years failed to disclose that rent payments were made to a related

  party.


  Florida Club Care Center, a Miami nursing home, paid $245,488 to settle its civil

  liability in a billing scheme. The nursing home contracted with a billing agency which

  billed Medicare for “lost charges,” allegedly billable services that the nursing home had

  overlooked. The scheme resulted in a Medicare overpayment of $62,814. As part of

  the settlement, the nursing home adopted a compliance plan designed to prevent

  future improper billing to the Medicare. A second Miami nursing home, Claridge

  House, contracted with the same billing agency resulting in a loss to the Medicare

  program of $262,000. Claridge House paid $414,911 to resolve its civil liability.


  Donald Reville, a Geriatric Specialist in Sacramento, California, pled guilty to all

  charges of a 38-count indictment, including mail fraud and false claims to Medicare

  totaling more than $350,000 for a 2-year period. Reville admitted that he routinely

  billed Medicare for comprehensive examinations and histories of nursing home patients

  without ever seeing the patients. He also admitted to billing Medicare for follow-up

  examinations that were not performed on patients. He merely made entries in the

  patients’ charts. This investigation was conducted jointly with the FBI.


  Donna Shelgren, former bookkeeper for SNF manager Frank Aiello, was sentenced in

  California for creating false documents to deceive auditors about the amount of

  supplies ordered by Aiello. The sentence was for 5 months in jail, a $10,000 fine, and

  200 hours of community service.


  Earlier, Mildrene Westbrook, a former claims analyst for the Medicare claims carrier,

  was sentenced for accepting payments from Aiello for tampering with his claims. The

  sentence included 5 years probation and 100 hours of community services.


  William Harrison, another former carrier employee, entered into a deferred

  prosecution program in return for cooperation and testimony at Aiello’s trial. Harrison

  accepted gratuities for preferential handling of Aiello’s claims and cost reports.


Mdical Services

- J. Michael Pruitt, DBA Support Products, Inc., pled guilty to one felony count involving
  the filing of fraudulent Medicare claims for orthotic body jackets. Support Products
  Inc., will pay restitution of $450,000 at sentencing September 8 in Houston, TX.


                                             23

- Jose M. Ferrer, the 22 year-old owner and sole employee of Express Medical D.M.E.,
  Inc., received approximately $2.3 million from Medicare by submitting false claims.
  Ferrer obtained lists of Medicare beneficiaries by paying kickbacks to management
  personnel in adult living facilities, and paid a physician to sign prescriptions for DME,
  orthotics and medication without examining the patients. The DOJ Civil Division froze
  assets of approximately $2 million.

- Chely Fernandez, Feliz A. Garcia-Loredo and Ignacio Elso through Get Well Medical
  Care, and C. F. Medical, purchased doctors’ signatures for Medicare prescriptions and
  submitted bogus claims for the rental of oxygen concentrators and medications. Elso
  and Fernandez purchased copies of Medicare cards and received commissions for
  obtaining the signatures of doctors. Billings for their schemes to Medicare totaled
  approximately $370,000, of which approximately $100,000 was paid.

- Robert Allen Lopez created 11 companies for the purpose of billing Medicare for
  parenteral nutrition therapy. Lopez utilized his wife and nominee owners to set up
  fictitious companies and submitted $4.2 million in false claims to Medicare. The OIG
  recovered half of the funds paid to Lopez.

- A physician formerly licensed in Florida was sentenced to 26 months in jail and
  ordered to make restitution of $441,000 for submitting false Medicare claims for DME
  and vascular testing at nursing homes. He was forbidden to have anything to do with a
  medically related concern during 3 years of supervised release following his jail
  sentence.

- The owner of an Illinois DME company was sentenced for billing Medicare for beds
  and wheelchairs that were not provided to nursing home residents. This case will be
  referred for civil monetary action.

- A DME company operator pled guilty in Texas to a charge related to Medicare fraud
  in which DME companies collected more than $1.47 million for wheelchair cushions
  billed to Medicare as body jackets. As part of the plea agreement, he will provide
  information regarding similar Texas operations. In an unrelated case, a Dallas dentist
  was indicted on five mail fraud counts. He operated a DME company in Texas, and
  was instrumental in forming four others. Each company sold wheelchair cushions to
  nursing home residents in five States. They were reimbursed $1.2 million for orthotic
  body jackets never provided. Medicaid and private insurance carriers also paid a
  substantial amount.

- Universal Medical Supplies participated in a fraud scheme in which Medicare overpaid
  more than $13.7 million. Seventeen persons, including doctors, salespersons, and
  managers, were indicted for billing Medicare for equipment never delivered, and for
  paying and accepting kickbacks for signing Certificates of Medical Necessity (CMNS).
  Harry Ulh-ich was convicted and sentenced earlier, and agreed to pay the Government
  more than $985,700 in a civil suit settlement. Dr. Angelo Volpe pled guilty to
  accepting kickbacks from Universal. He also submitted bills to Medicare for office


                                            24
  visits never made. Two Universal salespersons are expected to plead guilty within the
  next few weeks. Three more physicians are scheduled for trial in January 1996, and
  two other civil agreements are being negotiated.

- Joseph Broccolo, a podiatrist, was sentenced in New York to 3 years probation and 4
  months home confinement for providing services in patients’ homes, then inflating the
  number of visits he billed to Medicare. Broccolo’s son, Dennis Broccolo, worked for a
  Durable Medical Equipment company. The son recruited patients for the father. In
  return the father gave his son the Medicare number of his patients and signed CMNS
  which the son sold to his employer. Joseph Broccolo must pay more than $13,500 in
  restitution. Plea negotiations are underway with the younger Broccolo who pled guilty
  earlier this year.

- Barry Feldman, a podiatrist and middleman for a DME company in New York, was
  arrested for Medicare fraud. Feldman provided kickbacks for referral of Medicare
  beneficiaries and physicians’ UPINs and sold information to DME company. The
  DME company gave each beneficiary a lymphedema pump, regardless of necessity,
  and billed Medicare $4,800 for each pump.

- Bernice Tambascia, owner of MedFasat, Inc., largest Medicare supplier of
  Lymphedema pumps in New Jersey, was convicted of Medicare fraud and             obstruction
  of justice related to a false billing scheme involving Medicare beneficiaries   in Florida
  and New Jersey. She billed Medicare for pumps not necessary and falsely         indicated
  that lymphedema pumps, cheaper than the $4,000 pumps billed, had been           rented prior
  to prescribing the more expensive piece of equipment. Medicare overpaid          Tambascia
  in excess of $200,000.

- Kevin Dyevich, President, Global, second largest DME supplier in New Jersey, pled
  guilty for misrepresenting lymphedema pumps billed to Medicare and/or double billing
  Medicare. Dyevich billed beneficiaries in ORT States. Global will enter into a civil
  settlement covering the $270,000 improperly billed, including penalties and cost of
  investigation.

- The owner of Absolut Medical Services, a Miami DME supplier, agreed to pay $65,000
  and accepted a 5 year exclusion from the Medicare and Medicaid programs to resolve
  his civil liability under the False Claims Act and the Civil Monetary Penalty Law. The
  company paid “recruiters” a $25 kickback for each Medicare beneficiary they supplied.
  The scheme resulted in $58,212 in Medicare payments for unnecessary DME.




                                             25

                OUTREACH                   ACTIVITIES

COMPLETED      OUTREACH      ACXMTIES

Initial Announcement

I?ressReleases/Fact Sheets

Fraud Alerts

Interviews: Print, Radio and On-Camera

Am”cles

Speeches/Meetings

Hot line

Congressional Activities


ONGOING     OUTREACH      ACrMTIES

Interviews: Print, Radio and On-Camera

Fraud Alerts

Hot line


PLANNED OUTREACH ACTMTIES

Press Releases/Fact Sheets

Interviews: Print, Radio and On-Camera

Articles

Speeches/Meetings

Hot line

Congressional Activities





                                          26

                       OUTREACH       ACTMTIES        DESCRIPTIONS


COMPLETED OUTREACH ACITWHES

Ihitial Announcement

�	
       On May 3, President Clinton announced the Operation Restore Trust initiative to
       delegates at the White House Conference on Aging.

�
      Additionally, the Secretary, the HCFA Administrator and the Inspector General
      briefed White House reporters on Operation Restore Trust as part of overall
      briefing on White House Conference on Aging.

9	
      0nMay3,    the Inspector General held apress       conference to announce and answer
      questions about Operation Restore Trust.

�	
      0nMay4,    the Vice President’s speech before the White House Conference on
      Aging addressed the Operation Restore Trust initiative.

9	
       On May 4, a message announcing this new initiative was sent to all HHS
       employees was sent out via the e-mail and followed up with desk-to-desk delivery.

9	
      On May 11, Vice President Gore visited HHS to announce REGO II with
      Secretary Shalala and Deputy Secretary Broadnax. Operation Restore Trust was
      highlighted in the Vice President’s remarks. Press attended.

Bess Reikases/Fact Sheets

�
      On May 3, 1995, a press release, with three fact sheets, were issued simultaneously
      with the President’s announcement.

             --        Fact sheet describing the initiative.
             ..        Fact sheet detailing information on each of the five targeted States.
             -.        Fact sheet on the voluntary disclosure program.

�
      Press release issued bythe Inspector General on June 12, 1995, announcing
      procedures for the Voluntary Disclosure Pilot program.

�
      On June 14, 1995, afactsheet   wasreleased totrade publications announcing the
      Inspector General will undertake reviews of hospice facilities in the five Operation
      Restore Trust States.

*	    Press release issued June 27, 1995, announcing a toll-free hot line (1-800 HHS­
      TIPS).



                                              27

 �	
         Press release issued June 29, 1995, by Secretary Shalala releasing a Special Fraud
         Alert on Home Health Fraud.

�	
         Press release issued August 4, 1995, by Secretary Shalala on Medical Supplies to
         Nursing Facilities. Simultaneously, Secretary Shalala held a press conference in
         Austin, Texas and released the Special Fraud Alert and discussed this new fraud
         initiative. Texas Attorney General Dan Morales participated with Secretary
         Shalala.

�	
         Press release issued October 10, 1995, by Secretary Shalala warning consumers
         and health care professionals about questionable practices affecting Medicare’s
         hospice program.

Fhzud Ah

�	
         On June 29, 1995, the Special Fraud Alert on Home Health Fraud was issued.
         Fifteen thousand copies were printed and distributed.

�	
         On August 4, 1995, another 15,000 copies of a Special Fraud Alert on Fraud and
         Abuse in the Provision of Medical Supplies to Nursing Facilities was issued. This
         alert was released by the Secretary at a press conference in Austin, Texas.

Adviwy    Bulkth

�	
         On October 10, 1995, a Medicare Advisory Bulletin was issued and copies
         distributed to the media. Copies are being printed and will be distributed to the
         HCF~ AoA and Medicare carriers and contractors.



�	
         On May 16, 1995, at the first targeted State meeting in Dallas, Texas, the
         Inspector General and the HCFA Administrator held a joint press briefing and
         fielded questions related to this initiative.

�
         The Inspector General did an interview with Lynn Filusch for HHS Radio on the
         HHS-TIPS hot line on June 27, 1995.

�	
         Lewis Morris, Office of General Counsel, did an interview with Lynn Filusch for
         HHS Radio on the release of the Special Fraud Alert on Home Health Fraud on
         June 29, 1995.

�	
         On June 30, 1995, the Inspector General was interviewed on-camera by Medill
         News Service for airing on WIFR-TV in Rockport, Illinois. The interview focused
         on Operation Restore Trust. The hot line poster was on display and they filmed
         the poster for airing.



                                             28



— —
�
         The Chicago 01 Regional Office, Robert Noble, granted an interview to Illinois
         Medicine. Since Illinois isoneof the Restore Trust States, theintetiew focused
         on the project.

�
         On July 17, CNNvisited the HHS-TIPS hotline and filmed theoperation         fora
         segment CNN was producing on Medicare fraud.

�
         On July 20, 1995, the Inspector General was interviewed on-camera for the
         MacNeil Lehrer NewsHour concerning health care fraud and Operation Restore
         Trust. The producers plan to focus attention on health care fraud in the State of
         Florida. They planned to intemiew Senator Graham and Kendall Coffee, U.S.
         Attorney. The segment is expected to air before the end of the year.

�
         On August 17, 1995, the MacNeil Lehrer NewsHour filmed the HHS-TIPS hot
         line operation for the segment they are producing on health care fraud.

�
         On October 6, 1995, the Inspector General granted an interview to NurseWeek
         Magazine on Operation Restore Trust. Theinterview should appear in the
         December issue.

�
         On October 8, the Inspector General gave the keynote address before the national
         meeting of the Nation~l Association f& Home C&e and the Hospice Association
         of America in San Francisco, California. A portion of the Inspector General’s
         remarks focused on Operation Restore Trust.

Anici%

9        The Journal of Public Inquiry, a publication of the Inspectors General of the
         United States, Summer 1995, printed an article written by the Inspector General
         on Operation Restore Trust. The article is titled, “Partners Against Crime: Using
         a Culture of Collaboration to Win in the Fight Against Health Care Fraud.”

�	
         The Inspector General has submitted a guest editorial on Operation Restore Trust
         for Home Health Care Dealer magazine. This magazine reaches 12,000 suppliers
         of home medical equipment and services. The article is scheduled to appear in
         the September/October  1995 issue.

Speeches/Meetings

�	
         The Operation Restore Trust team members have given presentations     and
         speeches to the following:

               --     Managed Home Care Congress
               -.     National Health Lawyers Association
               ..     Physicians Advisory Committee
               -.     Several Home Health Agencies


                                             29

                ..      Several Nursing Home Associations
                .-      Healthcare Educational Research Fund (Part of the Health Care
                        Association of New York State)
                ..      Healthcare Financial Management Association

�	
       OnOctober 8,1995, the Inspector General gave the keynote address before the
       national meeting of the National Association for Home Care and the Hospice
       Association of America. A portion of the Inspector General’s remarks focused on
       Operation Restore Trust.

Hot &e

�	
       The hot line number was released to the public on June 27, 1995. The hot line
       received 1,990 calls, letters, and other complaints during the month of June. Of
       the 1,990 complaints, 719 were entered into the system for further case
       development or referral. Of these, 624 involved Medicare Part A and B or
       Medicaid, and 48 percent of them originated from target States.

�	
       For September, the hot line received 3,023 complaints, the highest total since
       being announced--l2l calls were ORT related.

�
       A hot line poster has been developed.

Clmgr&nal       Activdies

�
       The OIG Congressional staff developed an Operation Restore Trust logo.

�	
       The OIG and HCFA Congressional Relations teams have developed a
       comprehensive packet of information for distribution to Congressional leaders and
       their staffs. All five targeted State delegations received information as it was
       released to the media on this initiative.

�	
       On May 30, 1995, Restore Trust team members briefed Congressman John
       Dingell’s staffers on the new fraud initiative. The briefing was requested by
       Dingell’s staff.

�	
       During the month of June, HCFA and OIG briefed the Congressional delegations
       of the five targeted States.


ONGOING OUTREACH             ACrMTIES

Interviews: ~        Radw and On-Carn.era

�	
       The Inspector General will be interviewed on November 2 by Don McLeod,
       AARP, for the December issue. Part of the intemiew will focus on ORT.


                                             30
�	
      The OIG press office strives on a daily basis to be proactive concerning the
      Operation Restore Trust initiative. As inquiries come in from the media, a
      concerted effort is made to discuss the Restore Trust initiative in addition to what
      the call is in reference to. Further, calls have been and are being made to various
      media--broadcast and print--to discuss the initiative and hopefully generate
      coverage.

�	
      The Administration on Aging has developed a media listing for editors of senior
      citizen publications.

�	
      Initial contacts have been made with 48 Hours, 20/20, AARP and U.S. News and
      World Report concerning possible stories. Each has indicated interest.

�	
      In early November, Dateline will air a segment on health care fraud. Linda Little,
      Regional IG for Investigations was interviewed on camera and she discussed the
      ORT project and provided the hot line number.

Fkaud Alas

�	
      Two Special Fraud Alerts are under development and will be issued over the next
      6 months. The Special Fraud Alerts will focus on the following areas with a
      tentative target date of issuance: (1) nursing home services by the end of
      December, and (2) ambulance transportation by the end of March 1996.

H& like

�	
      Three letters have been developed and all are in the clearance process. It is hope
      the letters will be out by the end of October and no later than mid November.

      .-     The first letter has been prepared to editors of senior citizen publications
             seeking their assistance in publicizing the 800 HHS-TIPS hot line. The
             letter has been prepared for signature of the Inspector General, the HCFA
             Administrator, and the Assistant Secretaxy for Aging. Clearance has been
             obtained from HCFA and is awaiting clearance from Aging and the
             Inspector General.

      .-     The second letter is to the congressional delegations in the five target
             States seeking their assistance in publicizing the 800 HHS-TIPS hot line in
             their newsletter to constituents or other informational materials they
             produce.

      --     The third letter is to congressional delegations outside the Restore Trust
             States also seeking their assistance in publicizing the hot line in their
             newsletter to constituents or other informational materials they produce.

�
      The hot line poster (large version) will be disseminated to all target States.
     PLANNED OUTREACH ACTMTIES
     ties Rekses/Fact Sheets

     �	
              The Inspector General has initiated a number of investigations in the target States
              and target areas. We expect to have early results in some of these cases in the
              months ahead. Many cases will come to fruition through the fall and into next
              year. As these cases come to completion, we will prepare fact sheets, press
              releases, or press events.

     �	
              A number of audit and inspections are also underway and as reports are
              completed and ready for issuance, we will consider preparing fact sheets, press
              releases, or press events based on the findings. The OIG will provide the
              Secretary and other Department officials advanced warning so a decision can be
              made about high level involvement in these areas of interest.

     �	
              Press releases will be prepared and submitted for issuance on Special Fraud Alerts
              as they are ready for issuance. The OIG will determine if there are targets of
              opportunity for media events with the Secretary or others as these alerts are
              nearing completion.



     �	
              We will be developing a listing of reporters in the five Restore Trust States and
              begin to cultivate relationship and interest in the Restore Trust initiative.

     �	
              We will be seeking interviews with trade press, such as Medical Economics and
              Modem Healthcare magazines.

     �
              As Department officials (The Secretary, HCFA Administrator, Assistant Secretary
              for Aging, Inspector General) travel in the 5 target States, staff should recommend
              or seek additional “targets of opportunity” for doing interviews, media events,
              editorial boards.

     Artia3

     �	
              The OIG will be developing a list of topics/issues for articles that can then be
              written for the Inspector General’s or other Department officials’ by-line.



     �	
              In November 1995, the OIG will speak on our ongoing work at a conference
              sponsored by the National Hospice Organization.




                                                    32


——            .
Hot ilhe

�	
       We will be scheduling meetings to discuss publicizing the number in Spanish since
       many of the Restore Trust States have Hispanic populations.

�
       We will discuss a possible public service announcement,

Cbngressibnal Activiiks

�	
       The Congressional staffs (HCFA and OIG) will continue on a daily basis to be
       proactive concerning the Operation Restore Trust initiative.




                                            33
    VOLUNTARY                         DISCLOSURE                        PILOT

The OIG’S previously-announced voluntary disclosure program was officially launched on
a pilot basis under the auspices of Operation Restore Trust. Through the Voluntary
Disclosure Pilot (VDP) program, the OIG, in conjunction with the Department of Justice
(DOJ), has established procedures by which health care corporate providers in the target
health care sectors may come forward with full disclosure of potential fraud and abuse
which may give rise to corporate liability. The VDP is modeled after a voluntary
disclosure program initiated in 1986 by the Department of Defense for treating
self-disclosed incidents of fraud by defense contractors. There have been more than 300
successful disclosures under that program.

The VDP program is available to home health agencies, nursing facilities, medical
suppliers and hospice care providers whose activities affect Medicare and Medicaid
beneficiaries in the five target States. The Inspector General has stated her intention
that the OIG employ similar procedures in treating voluntary disclosures that do not
meet the jurisdictional criteria of the pilot.

The primary purpose of the VDP program is to facilitate increased industry participation
in the detection and prevention of Medicare and Medicaid fraud and abuse. Promoting
self-disclosure further enables the OIG to identify developing patterns and practices of
fraudulent activity in the designated industry segments. Voluntary disclosure offers
self-disclosing entities the opportunity to minimize the potential cost and disruption of a
full scale audit and investigation; to negotiate monetary settlements to the Medicare and
Medicaid programs based upon the matter disclosed, including a possible reduction in
exposure from treble to double damages; and to reduce or avoid an OIG permissive
exclusion under 42 U.S.C. 1320a-7(b), as appropriate.

The joint OIG/DOJ procedures for the VDP were announced in June 1995. Since that
time, the OIG has been engaged in a multi-track implementation process. The first track
has addressed internal needs, with attention to staff training and development of internal
program materials and protocols. A second track is aimed at educating the health care
community, including the health care defense bar, about this new program and the
voluntary disclosure procedures. In an effort to promote awareness of the VDP, the
OIG has spoken publicly about the program, disseminated media materials about the
VDP, as well as fielded telephone and written inquiries from providers and counsel.

Many internal and public activities of Operation Restore Trust have presented significant
opportunities for VDP implementation. The OIG has received a growing volume of
inquiries about the VDP, including significant interest from providers who are not within
the jurisdiction of Operation Restore Trust. These disclosures of fraudulent practices are
being handled as voluntary disclosures in the manner described by the VDP procedures.
Because volunta~ disclosures are accorded the same investigative sensitivity as other
ongoing OIG investigations, there is little that may be disclosed about individual cases at
this time.


                                             34
